No. 19-227

 

 

IN THE

Supreme Court of the Anited States

ADNAN SYED,
Petitioner,

v.

THE STATE OF MARYLAND,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE MARYLAND COURT OF APPEALS

BRIEF OF MARTIN TANKLEFF AND THIRTY-
EIGHT OTHER WRONGFULLY CONVICTED
INDIVIDUALS AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,715 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 20, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
